                        U.S. Department of Agriculture

                           Office of Inspector General
                                    Southwest Region




              Audit Report

        Food And Nutrition Service
Accountability And Oversight Of The National
          School Lunch Program
             Star Programs, Inc.
               Ingram, Texas




                                Report No. 27010-9-Te
                                        October 2003
                    UNITED STATES DEPARTMENT OF AGRICULTURE
                                      OFFICE OF INSPECTOR GENERAL
                                           Southwest Region - Audit
                                        101 South Main Street, Suite 324
                                             Temple, Texas 76501
                                     TEL: 254-743-6565 FAX: 254-298-1373


DATE:           October 9, 2003

REPLY TO
ATTN OF:        27010-09-Te

SUBJECT:        Accountability and Oversight of the National School Lunch Program –
                Star Programs, Inc., Ingram, Texas

TO:             William Ludwig
                Regional Administrator
                Food and Nutrition Service
                1100 Commerce Street, Room 5-A-6
                Dallas, TX 75242

ATTN:           Ronald Rhodes
                Regional Director
                Special Nutrition Programs


This report presents the results of our audit of the Accountability and Oversight of the National School
Lunch Program – Star Program, Inc., Ingram, Texas. Your written response concurring with all findings
and recommendations to the official draft report is included in its entirety as exhibit B. The Office of
Inspector General’s position is incorporated into the Findings and Recommendations section of the report.

Management decisions have not been reached for Recommendations Nos. 1 through 6. The information
needed to reach management decision is set forth in our position section after each recommendation.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days describing the
corrective action taken or planned and the timeframes for implementation for those recommendations for
which a management decision has not yet been reached. Please note that the regulation requires a
management decision to be reached on all findings and recommendations within a maximum of 6 months
from report issuance, and final action to be taken within 1 year of each management decision.

If you have any questions, please call me at 254-743-6565 or have a member of your staff contact Amy
McCormack, Assistant Regional Inspector General, at 254-743-6566.




/s/TRM
TIMOTHY R. MILLIKEN
Regional Inspector General
  for Audit

Attachments
Executive Summary
Food and Nutrition Service, Accountability and Oversight of the National School Lunch
Program (Audit Report No. 27010-9-Te)

Results in Brief    This report presents the results of our audit of the National School Lunch
                    Program (NSLP) as administrated by Star Programs, Inc., a residential
                    childcare institution, in Ingram, Texas, also known as the School Food
                    Authority (SFA). The purpose of the NSLP is to provide nutritionally
                    balanced, low-cost or free lunches to schoolchildren that will encourage
                    better eating habits.

                    The objectives of this audit were to evaluate the SFA’s procedures to ensure
                    the propriety of (1) meal claims, (2) the application and verification process
                    for determining student eligibility, (3) individual school monitoring,
                    (4) program fund investments, and (5) program procurements.

                    We found that SFA’s Food Service Management Company (FSMC) contract
                    and subsequent renewals were not in accordance with Federal regulations or
                    Food and Nutrition Service (FNS) instruction. SFA officials were unaware of
                    any procurement requirements for FSMC contracts. Specifically, they were
                    not aware of the need to bid the FSMC contract and they accepted the FSMC
                    contract and renewals as fixed cost contracts. As a result, SFA paid FSMC at
                    least $18,391 in ineligible management fees.

                    We also found that the SFA had inadequate procedures in place to ensure the
                    accuracy and eligibility of meals claimed for reimbursement. This occurred
                    because SFA officials had not participated in the voluntary training that the
                    Texas Department of Human Services (TDHS) offered and had not read the
                    NSLP regulations. Instead they relinquished administrative responsibility of
                    the program to its FSMC, which was located in California. SFA officials
                    stated that they did not think it was necessary to perform administrative
                    oversight. As a result, SFA could not provide assurance to the accuracy of
                    meals claimed or that reimbursed meals were eligible.

                    For the other stated objectives in this audit (appropriate application and
                    verification process for determining student eligibility, monitoring individual
                    schools, and investment of program funds, which was limited to the
                    purchases made with NSLP reimbursements), we found no problems that
                    would warrant further audit coverage or corrective actions, at this time.

Recommendation
In Brief            We recommend that FNS recover $18,391 in ineligible costs used by SFA to
                    pay the FSMC’s management fees. We also recommend FNS direct TDHS to
                    require the SFA to bid the FSMC contract using the Federal regulations.
                    Further, we recommend that FNS direct TDHS to require the SFA to
                    establish internal controls and to require all new SFAs to attend NSLP
                    training. FNS should direct TDHS to perform a followup review to ensure the

USDA/OIG-A/27010-9-Te                                                                    Page i
                   SFA is administering the program in accordance with Federal and State
                   regulations and collect any additional monies found during these reviews.

Agency Response    In a letter dated October 6, 2003, FNSRO agreed with the findings and
                   recommendations. (See exhibit B.)

OIG Position       We need additional information to reach management decision for all of the
                   recommendations. The information needed to reach management decision is
                   set forth in the findings and recommendations section of the report.




USDA/OIG-A/27010-9-Te                                                              Page ii
Abbreviations Used in This Report


CFR                 Code of Federal Regulations
FNS                 Food and Nutrition Service
FSMC                Food Service Management Company
FY                  Fiscal Year
NSLP                National School Lunch Program
OIG                 Office of Inspector General
SBP                 School Breakfast Program
SFA                 School Food Authority
TDHS                Texas Department of Human Services
TEA                 Texas Education Agency




USDA/OIG-A/27010-9-Te                                    Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. Noncompliance in Administering the NSLP ................................................................ 3

        Finding 1             FSMC Contract is Not in Accordance With Federal Regulations .......................... 3
                                 Recommendation No. 1.................................................................................... 4
                                 Recommendation No. 2.................................................................................... 5
        Finding 2             SFA Officials Had Inadequate Internal Control Procedures ................................... 5
                                 Recommendation No. 3.................................................................................... 7
                                 Recommendation No. 4.................................................................................... 7
                                 Recommendation No. 5.................................................................................... 7
                                 Recommendation No. 6.................................................................................... 8

Scope and Methodology.......................................................................................................................... 9

Exhibit A – Summary of Monetary Results ....................................................................................... 11
Exhibit B – Agency Response............................................................................................................... 12
Exhibit C – SFA Payments To FSMC For Renewal Periods ............................................................ 13




USDA/OIG-A/27010-9-Te                                                                                                                 Page iv
Background and Objectives
Background         On June 4, 1946, Congress passed the National School Lunch Act (42 U.S.C.
                   1751), now the Richard B. Russell National School Lunch Act, as amended
                   December 29, 2001, authorizing Federal assistance to States in the
                   establishment, maintenance, and operation of school lunch programs. The
                   Act established the NSLP to safeguard the health and well-being of the
                   Nation’s children and to encourage the domestic consumption of nutritious
                   agricultural commodities. The program provides Federal assistance to help
                   public and nonprofit private schools of high school grade or under, as well as
                   public nonprofit private residential childcare institutions that serve nutritious
                   lunches to children.

                   The Act, as amended, authorizes the payment of general and special cash
                   assistance funds to States based upon the number and category of lunches
                   served. Section 4 of the Act authorizes general cash assistance payments for
                   all lunches served to children in accordance with the provisions of the NSLP,
                   and additional special cash assistance for lunches served under the NSLP to
                   children determined eligible for free or reduced-price lunches. States are
                   reimbursed at various rates per lunch, depending on whether the child was
                   served a free, reduced-price, or full-price (paid) lunch. Eligibility of children
                   for free or reduced-price lunches is based upon their family’s household size
                   and income, as listed in the FNS Income Eligibility Guidelines, which are
                   reviewed annually.

                   NSLP is promulgated, primarily through Title 7, Code of Federal Regulations
                   (CFR), part 210, the NSLP, and part 220, School Breakfast Program (SBP).
                   Other regulatory requirements include part 245, Determining Eligibility for
                   Free and Reduced-Price Meals and Free Milk in Schools, and part 3019,
                   Uniform Administrative Requirements for Grants and Agreements with
                   Institutions of Higher Education, Hospitals and Other Non-Profit
                   Organizations, establishing uniform administrative requirements for Federal
                   grants and agreements.

                   Through the FNS National Office, headquartered in Alexandria, Virginia, the
                   seven regional offices administer the NSLP and provide technical assistance
                   to the States. FNS Regional Offices monitor the States in their region by
                   conducting management evaluations; also they directly administer the
                   programs in some private schools. FNS Regional Offices also monitor and
                   control the flow of Federal funds to the States through a review of reports
                   which detail the financial expenditures of the States and the number of free,
                   reduced-price, and paid meals served.

                   NSLP is usually administered through a State’s Department of Education
                   (known as the State agency) that has the responsibility for administration of

USDA/OIG-A/27010-9-Te                                                                       Page 1
                   the NSLP. In the State of Texas the NSLP is administered by two agencies,
                   the Texas Department of Agriculture (TDA) and the TDHS.                 The
                   administration of the NSLP was moved from the TEA to the TDA in
                   July 2003. TDA administers charter and public schools, while TDHS
                   administers the private schools and residential childcare institutions. This
                   audit focused on the administration of the NSLP with regards to this
                   particular SFA

                   The State agency is required to enter into a written agreement with FNS for
                   the administration of NSLP Statewide, and written agreements with SFA for
                   local administration. The State Agency is also required to perform
                   administrative reviews covering both critical and general areas that include,
                   but are not limited to, meal claims, eligibility determinations, and use of
                   program funds. A coordinated review effort and a review of compliance with
                   nutrition standards are conducted at each SFA. FNS Regional Office
                   personnel may participate in these reviews. SFAs are responsible for the
                   administration of the program at the local school district level. Individual
                   schools are responsible for the onsite operation of the NSLP, including the
                   implementation of adequate meal accountability systems and the review and
                   approval of student applications for free and reduced-price meals. The State
                   agency and the SFAs are responsible for reviewing the monthly meal claims
                   to ensure that the number of meals claimed is limited to the number of
                   approved students in each category, adjusted to reflect the average daily
                   attendance.

                   The fiscal year (FY) 2002 funding for NSLP was $5.8 billion for meal
                   reimbursements of approximately 6 billion lunches. The FY 2003 estimated
                   funding is $6 billion in meal reimbursements. For the 2001/2002 school year,
                   the State of Texas had a NSLP enrollment of 4.2 million and reimbursements
                   of $800 million and the selected SFA had an enrollment of 30 to 36 and
                   reimbursements of $31,386.

Objectives         The objectives of this audit were to evaluate SFA’s procedures to ensure the
                   propriety of (1) meal claims, (2) the application and verification process for
                   determining student eligibility, (3) individual school monitoring, (4) program
                   fund investments, and (5) program procurements.




USDA/OIG-A/27010-9-Te                                                                     Page 2
Findings and Recommendations
Section 1. Noncompliance in Administering the NSLP

                                     SFA did not comply with multiple provisions of the NSLP. This occurred
                                     because of inadequate internal controls and reliance on the FSMC to operate
                                     the program. Additionally, TDHS had not provided critical FNS guidance
                                     regarding contract procurement to the SFA. As a result, SFA incurred over
                                     $18,000 in ineligible management fees and could not provide assurance that
                                     claims for reimbursement were either accurate or eligible.


Finding 1                            FSMC Contract is Not in Accordance With Federal Regulations

                                     We found that SFA’s FSMC contract and subsequent renewals were not in
                                     accordance with the Federal regulations or FNS instruction. SFA officials
                                     were unaware of any procurement requirements for FSMC contracts.
                                     Specifically, they were not aware of the need to bid the FSMC contract and
                                     they accepted the FSMC contract and renewals as fixed cost contracts. As a
                                     result, SFA paid FSMC at least $18,391 in ineligible management fees.

                                     Federal regulations1 and the FNS manual state all procurement transactions
                                     shall be conducted in a manner to provide, to the maximum extent practical,
                                     open and free competition. Awards shall be made to the bidder or offeror
                                     whose bid or offer is responsive to the solicitation and is most advantageous
                                     to the recipient, price, quality, and other factors considered. Solicitations
                                     shall clearly set forth all requirements that the bidder or offeror shall fulfill in
                                     order for the bid or offer to be evaluated by the recipient.

                                     Federal regulations2 also state that the State agency or school food authority
                                     is the responsible authority, without recourse to FNS, regarding the
                                     settlement and satisfaction of all contractual and administrative issues arising
                                     out of procurements entered into in connection with the program. This
                                     includes, but is not limited to source evaluation, protests, disputes, claims, or
                                     other matters of a contractual nature.

                                     Finally, Federal regulations3 state that the NSLP “cost-plus-a-percentage-of-
                                     cost” and “cost-plus-a-percentage-of-income” contracts are prohibited.
                                     Contracts that provide for fixed fees such as those that provide for
                                     management fees established on a per meal basis are allowed.



1
  7, CFR, section 3019.43, revised January 1, 2002
2
  7, CFR, section 210.21(b), revised January 1, 2002
3
  7, CFR, section 210.16(c), revised January 1, 2002

USDA/OIG-A/27010-9-Te                                                                                            Page 3
                   A firm-fixed-price contract if defined as a contract that provides for a price
                   that is not subject to any adjustments. This contract type places upon the
                   contractor maximum risk and full responsibility for all costs and resulting
                   profit or loss.

                   A 99-CN-04 All State Directors memo from the FNS Regional Office, dated
                   January 19, 1999, specifically addressed the FSMC used by the SFA. The
                   letter stated that any SFA entering the NSLP while under contract with this
                   particular FSMC must competitively bid the next contract renewal. The letter
                   also stated that FNS will allow the SFA to pay for the FSMC services, but
                   must follow all Federal procurement guidelines for renewals.

                   SFA initially contracted with FSMC to administer the NSLP from September
                   1998 through June 1999.          Subsequently, the FSMC contract was
                   automatically renewed annually from July 1999 until June 2003. The terms of
                   the original contract and three of the four renewals required SFA to pay a
                   management fee based on a percentage of the monthly claims for
                   reimbursement; making it a “cost-plus-percentage-of-income” contract. The
                   fourth contract renewal based the management fee on a set price per meal
                   served, which would have been allowable, if the SFA would have received
                   bids for the FSMC contract.

                   Upon entering the NSLP in February 1999, SFA officials received applicable
                   regulations and rules but advised us they did not read them. Additionally, the
                   above-mentioned letter was found in the SFA file folder held at the TDHS
                   area office, but was never forwarded to SFA. Therefore, SFA officials did not
                   know what constituted a “cost-plus-percentage-of-income” contract or that
                   they were required to obtain bids for the contract renewal. As a result, our
                   analysis of invoices and supporting documentation from July 1999 (the date
                   of the first renewal) through December 2002 showed the SFA paid the FSMC
                   at least $18,391 in ineligible NSLP management fees. (See exhibit C.)

                   FNS Regional Office officials confirmed that the initial FSMC contract
                   should have been honored because they did not want to disrupt the program.
                   FNS National Office officials stated SFA could not go years without
                   competitively bidding their FSMC contract because the contract would not be
                   reimbursable with NSLP funds.

Recommendation No. 1

                   Direct TDHS to recover the $18,391 in ineligible management fees.

                   Agency Response.

                   We concur with the recommendation.


USDA/OIG-A/27010-9-Te                                                                     Page 4
                                    OIG Position.

                                     We do not accept FNS management decision. To reach a management
                                     decision for this recommendation, we need documentation showing the
                                     specific corrective action to be taken, the timeframe within which the
                                     corrective action will be completed, and documentation that the amounts
                                     determined to be owed the Government have been collected.

Recommendation No. 2

                                    Direct TDHS to require the SFA to bid the FSMC contract using the Federal
                                    regulations.

                                    Agency Response.

                                    We concur with the recommendation.

                                    OIG Position.

                                     We do not accept FNS management decision. To reach a management
                                     decision for this recommendation, we need documentation showing the
                                     specific corrective action to be taken, and the timeframe within which the
                                     corrective action will be completed.


Finding 2                           SFA Officials Had Inadequate Internal Control Procedures

                                    SFA officials had inadequate procedures in place to ensure the accuracy and
                                    eligibility of meals claimed for reimbursement. SFA officials had not
                                    participated in the voluntary training that TDHS offered and had not read
                                    NSLP regulations. Instead they relinquished administrative responsibility of
                                    the program to its FSMC, which was located in California. SFA officials
                                    stated that they did not think it was necessary to perform administrative
                                    oversight since they serve so few students. As a result, the SFA could not
                                    assure the accuracy of meals claimed or that reimbursed meals were eligible.

                                    Controls over reimbursement claims not established

                                    Federal regulations4 and TDHS regulations5 state that SFA shall establish
                                    internal controls to ensure the accuracy of lunch counts prior to submission of
                                    the claims for reimbursement. At a minimum, these internal controls shall
                                    include: comparisons of daily free, reduced-price and paid lunch counts
                                    against data which will assist in the identification of lunch counts in excess of
                                    the number of free, reduced-price and paid lunches served each day to
4
    7, CFR, section 210.8(a), revised January 1, 2002
5
    TDHS NSLP/SBP Handbook, chapter 4, dated June 1, 2002

USDA/OIG-A/27010-9-Te                                                                                        Page 5
                                         children eligible for such lunches, and a system for following up on those
                                         lunch counts which suggest the likelihood of lunch counting problems.

                                         FSMC provided a web-based application for SFA to enter daily meal counts
                                         for each house. At the end of the month, FSMC employees consolidated the
                                         meal claims into one claim for reimbursement. The monthly claim for
                                         reimbursement was then forwarded to the SFA business manager who signed
                                         and submitted it to TDHS without reviewing it for accuracy. SFA officials
                                         also stated that they have no system in place to ensure that the number of
                                         students counted during lunch matched the number of students enrolled at
                                         SFA for that day. In addition, SFA officials do not have any written
                                         procedures for entering lunch counts. According to the SFA officials, they
                                         relied on FSMC for guidance and upon the houseparent to ensure that meal
                                         counts for free and paid students were entered into the system. We found that
                                         TDHS offers voluntary NSLP training to all SFAs; however, the TDHS
                                         records indicated that SFA had never participated in such training.

                                         SFA houseparent supervisors stated they reviewed meal counts for
                                         completeness every 1 to 3 days and before biweekly paychecks were
                                         released. However, we found that from February 13 to 15, 2003, one of the
                                         houses was missing meal counts. The meal counts were still missing as of
                                         February 27, 2003.

                                         Our comparison of meal counts versus enrollment for August 2002, October
                                         2002, December 2002, and January 2003 found the SFA officials over
                                         claimed 25 lunches, 23 breakfasts and 19 snacks. Furthermore, when we
                                         compared the daily claims for reimbursement with the number of children
                                         under the free and paid status, there were inconsistencies with meal entries.
                                         Consequently, the SFA officials claimed 12 more free lunches and 17 more
                                         free breakfasts than should have been allowed. For example, in October
                                         2002, a houseparent in one house entered six children under a different status
                                         (free or paid) every 3 to 4 days. Though problems exist with the SFA claims
                                         for reimbursement, the monetary impact is minimal and does not warrant
                                         recovery.

                                         Nonreimbursable meals served

                                         Federal regulations6 state the contents of a reimbursable lunch must include
                                         at least three menu items, one must be an entrée and one must be fluid milk
                                         as a beverage.

                                         During our two lunch observations, SFA cafeteria staff did not offer or serve
                                         milk to the students. SFA cafeteria staff stated they were unaware of the
                                         requirement although they did serve milk with breakfast and dinner; however,
                                         dinner is not eligible for reimbursement.

6
    7, CFR, section 210.10.i.2(i), revised January 1, 2002

USDA/OIG-A/27010-9-Te                                                                                           Page 6
                   Since breakfast was served in the houses, we checked four of the five houses
                   to make sure that milk was available. We found 1½ to 3 gallons of milk in
                   each house, which appeared to be sufficient to meet the milk requirement.
                   FSMC provided menus to the SFA, which included milk for lunch, but the
                   SFA cafeteria staff did not follow the menus.

Recommendation No. 3

                   Direct TDHS to require SFA to establish internal controls that includes a
                   meal counting system with proper documentation, a system for monthly
                   verification of FSMC prepared claims for reimbursement, and second party
                   reviews to ensure that claims for reimbursement are accurate and meals
                   claimed are reimbursable.

                   Agency Response.

                   We concur with the recommendation.

                   OIG Position.

                    We do not accept FNS management decision. To reach a management
                    decision for this recommendation, we need documentation showing the
                    specific corrective action to be taken, and the timeframe within which the
                    corrective action will be completed.


Recommendation No. 4

                   Direct TDHS to require all new SFAs to attend the NSLP training.

                   Agency Response.

                   We concur with the recommendation.

                   OIG Position.

                    We do not accept FNS management decision. To reach a management
                    decision for this recommendation, we need documentation showing the
                    specific corrective action to be taken, and the timeframe within which the
                    corrective action will be completed.

Recommendation No. 5

                   Direct TDHS to perform a followup review to ensure that SFA is
                   administering the program in accordance with Federal and State regulations.

USDA/OIG-A/27010-9-Te                                                                   Page 7
                   Agency Response.

                   We concur with the recommendation.

                   OIG Position.

                   We do not accept FNS management decision. To reach a management
                   decision for this recommendation, we need documentation showing the
                   specific corrective action to be taken, and the timeframe within which the
                   corrective action will be completed.

Recommendation No. 6

                   Direct TDHS to collect any additional monies found during the followup
                   review.

                   Agency Response.

                   We concur with the recommendation.

                   OIG Position.

                    We do not accept FNS management decision. To reach a management
                    decision for this recommendation, we need documentation showing the
                    amounts determined to be owed the Government have been collected.




USDA/OIG-A/27010-9-Te                                                                 Page 8
Scope and Methodology
                                    Audit work was performed at the FNS Regional Office in Dallas, Texas, the
                                    TDHS offices in Austin and San Antonio, Texas, and the SFA in Ingram,
                                    Texas. SFA was selected based on concerns raised regarding SFA’s contract
                                    with FSMC. Our fieldwork was conducted between January 2003 and
                                    July 2003. The period covered by the audit included the NSLP operations for
                                    SY 2002/2003 (August 2002 to January 2003), but due to questions about the
                                    FSMC contract, we expanded the scope to include the months of April 1999 to
                                    July 2002. However, the scope was limited due to missing FSMC invoices and
                                    checks from May 1999, September 2001, October 2001, July 2002, and
                                    October 2002.

                                    The audit was conducted in accordance with Government Auditing Standards
                                    issued by the Comptroller General of the United States. Accordingly, the
                                    audit included such tests of program and accounting records as considered
                                    necessary to meet the audit objectives.

                                    In order to evaluate the accuracy of the meal claims, we examined monthly
                                    claims for reimbursement and FSMC invoices, meal production records, meal
                                    count records, and daily attendance records. We also attended two meal services
                                    to observe SFA’s meal counting process. In addition, we accessed the FSMC’s
                                    online meal count system to facilitate validation of the meal count records. This
                                    was necessary because the FSMC was in another state.

                                    According to the TDHS regulations,7 residential childcare institutions are not
                                    required to obtain an application or signature from an adult household
                                    member to receive free or reduced-price meals on behalf of a child in
                                    residence. However, SFA must document the child’s income and eligibility
                                    status in the child’s case file and on the master list. Since SFA is a residential
                                    childcare institution, we evaluated the monthly attendance records to ensure
                                    that they contained the information required by the TDHS regulations.

                                    SFA was a single campus and therefore did not need to perform separate
                                    monitoring functions. However, the meal count information was entered and
                                    separated in the FSMC’s system by house. The information is consolidated
                                    by the FSMC staff and sent to SFA for submission to TDHS. We evaluated
                                    the internal controls and review process used by SFA to ensure the accuracy
                                    of the monthly claim for reimbursement.

                                    To evaluate the investment of funds, we interviewed the SFA personnel about
                                    the current NSLP financial system and we performed a comparative analysis of


7
    TDHS NSLP/SBP Handbook, chapter 2, dated June 1, 2002

USDA/OIG-A/27010-9-Te                                                                                         Page 9
                   bank statements and general ledger entries from October 2002 through
                   December 2002.

                   We discussed the procurement process that the SFA personnel used to obtain
                   goods and services. We obtained the invoices from the cafeteria staff and
                   calculated the total spent on food purchases. We also reviewed the FSMC
                   contract and the Federal regulations regarding procurement.

                   In addition, we reviewed the FNS and the TDHS regulations, policies, and
                   procedures relating to NSLP. We also discussed any concerns regarding the
                   operations of the program with the FNS and the TDHS personnel.




USDA/OIG-A/27010-9-Te                                                                Page 10
Exhibit A – Summary of Monetary Results
                                                              Exhibit Page 1 of 1



  FINDING     RECOMMENDATION
  NUMBER          NUMBER       DESCRIPTION       AMOUNT      CATEGORY

                               SFA Paid FSMC               Questioned
                               Nonreimbursable             Costs/Loans,
                               Contract Fees               Recovery
      1                 1                          $18,391 Recommended
TOTAL                                              $18,391




USDA/OIG-A/27010-9-Te                                                  Page 11
Exhibit B – FNS Response
                                                                                                             Exhibit Page 1 of 1




                                            United States Department of Agriculture
                                                   Food and Nutrition Service
                                                        Southwest Region




Reply to
 Attn of: SWSN :220                                                                                  OCT 6 2003

Subject: Official Draft of Audit Report 270l0-09-Te

           Timothy R. Milliken
     To:
           Regional Inspector General for Audit

           This is to provide our concurrence with the audit findings and recommendations in the
           official draft of audit 27010-09- Te, Accountability and Oversight of the National School
           Lunch Program -Star Programs, Inc., Ingram, Texas.




FORM FCS-60S (3-96)                                    1100 Commerce Street. Dallas. TX 75242-1005




USDA/OIG-A/27010-9-Te                                                                                                 Page 12
Exhibit C – SFA Payments To FSMC For Renewal Periods
                                                                                                      Exhibit Page 1 of 1


                     Service Month        Check Date Check Number Check Amount
          July 19991                         08/31/99       19475    $    659.09
          August 19992                       12/15/99       19899         591.96
          September/October/November 1999    01/17/00       20023       1,016.30
          December 1999                      02/15/00       20149         483.01
          January/February 2000              04/14/00       20385         798.04
          March 2000                         05/15/00       20579         399.33
          April 2000                         06/15/00       20732         411.34
          May 2000                           07/15/00       20861         418.68
          June 2000                          08/15/00       20994         622.75
          July 2000                          09/21/00       21251         538.90
          August/September 2000              10/01/00       21369         786.17
          October 2000                       11/01/00       21436         530.05
          November 2000                      01/01/01       21508         456.95
          December 2000                      01/01/01       21579         582.37
          January 2001                       02/01/01       21644         490.76
          February 2001                      04/03/01       21720         430.79
          March 2001                         04/25/01       21793         468.42
          April 2001                         05/01/01       21870         438.93
          May 2001                           07/16/01       21941         483.28
          June 2001                          08/15/01       22013         682.52
          July 2001                          10/15/01       22148         422.11
          August 2001                        11/15/01       22222         418.85
          September 20013                  Not Known    Not Known     Not Known
          October 2001                       12/14/01       22297         340.11
          October 20012                      01/15/02       22393         516.45
          November 2001                      02/15/02       22434         326.39
          December 2001/January 2002         03/06/02       22505         844.37
          February 2002                      04/15/02       22631         324.30
          March 2002                         05/15/02       22706         366.62
          April 2002                         06/17/02       22787         321.15
          May 2002                           07/15/02       22862         403.35
          June 2002                          08/15/02       22937         469.12
          June 20024                         09/16/02       23019         469.12
          July 20025                       Not Known    Not Known     Not Known
          August 2002                      Not Known         5875         496.12
          September 2002                     12/02/02       23258         447.65
          October 20022                      12/16/02       23283         448.30
          November 2002                      01/15/03       23385         440.49
          December 2002                      02/17/03       23484          46.49
                         Total                                        $18,390.63


1
  Services for June 1999 and July 1999 paid with one check for $1,339.77, which included $659.09 for July 1999
2
  No invoice provided
3
  No invoice or check provided
4
  SFA paid twice for same amount.
5
  No check provided

USDA/OIG-A/27010-9-Te                                                                                                       Page 13
